                                      OFFICE OF THE INSPECTOR GENERAL


                                      memorandum
   DATE:    December 20, 2004

REPLY TO
 ATTN OF: Gregory A. Brower, Inspector General

SUBJECT:    Report on the Review of Funds Electronically Taken Back by
            GPO’s Customer Agencies

        TO: Public Printer
            Chief Financial Officer

            This Office of the Inspector General (OIG) Report provides the
            results of a review of funds electronically taken back
            (“chargebacks”) by customer agencies via the Department of the
            Treasury’s Intra-governmental Payment and Collection (“IPAC”)
            system.

            RESULTS IN BRIEF
            Regarding this subject, the OIG review disclosed:

                •   Total chargeback amounts have greatly escalated
                    during Fiscal Year (FY) 2004 – as of July 2004, net
                    chargebacks were over $10 million. One customer
                    agency, the Department of Transportation (DOT), has,
                    to date, charged back over $3.5 million in FY 2004.

                •   Chargebacks have been for printing that the agencies
                    received and accepted, including printing jobs and
                    funds from prior fiscal years.

                •   IPAC, operated by the Department of the Treasury
                    (“Treasury”) for use by Federal agencies for intra-
                    Government fund transfers, lacks adequate controls to


05-01
(339)
               prevent inappropriate chargebacks that, in turn, have
               caused waste and inefficiency due to duplicative
               processing of these charges.

           •   The 90-day limitation on allowable adjustments to IPAC
               payments prescribed by Treasury is not being followed
               by customer agencies and no sanctions have been
               applied, causing some chargebacks to be made that
               date back three years or more.

           •   These chargebacks have had an adverse financial
               impact on GPO by reducing its available cash.

        During the course of this review, the OIG discussed the chargeback
        issue with the Comptroller and other staff in the Office of Finance
        and Administration (F&A). The OIG commends them for
        immediately taking steps to address this problem, including their
        recovery of over $230,000 from DOT. However, more needs to be
        done to facilitate additional chargeback recoveries.

        Recommendations

        The OIG recommends that the CFO instruct F&A personnel as
        follows:

           1. The Accounts Receivable (A/R) Section should
              continue to work with appropriate DOT officials so that
              the accounts of both organizations are reconciled and
              repayment of the remaining chargebacks, including the
              $3.3 million noted in FY 2004, can be made promptly.

           2. The A/R Section should contact other customer
              agencies as soon as possible after receiving notification
              of material (large-dollar) chargebacks, and likewise
              obtain repayments for those agencies’ chargebacks.

           3. The Comptroller should consider the short-term
              reassignment of F&A staff to help address and correct
              the chargeback problem.

           4. The Comptroller should develop a procedure to ensure
              that both IPAC-related billing codes (Billing Address
              Codes and Agency Location Codes) are updated within
              A/R systems in a timely fashion.


05-01                                                                     2
(339)
        In addition, the OIG recommends that the CFO:

           5. Initiate contact with appropriate Treasury IPAC officials
              to address control issues within that system, including
              the lack of compliance by GPO customer agencies with
              IPAC procedures and protocols, and the lack of
              sufficient internal controls over IPAC adjustments.

           6. Develop an “escalation procedure” to ensure that aged
              chargeback and other A/R balances owed to GPO by
              customer agencies receive adequate attention from
              senior GPO (and other appropriate) management. This
              procedure would require formal notification between
              different management levels as these balances age.
              For example, Comptroller-to-Comptroller contact on
              A/R balances beyond 60 days, CFO-to-CFO beyond 90
              days, IG-to-IG beyond 120 days, and elevation to the
              Deputy Public Printer should the situation warrant it.

        Management Response
        On September 24, 2004, a draft of this report was provided to the
        Public Printer, the CFO, and others in the Office of Finance and
        Administration for review and comment. In response to that draft,
        the CFO concurred with our recommendations.

        BACKGROUND
        Most of GPO’s billings to federal customer agencies for printing and
        binding work are automated via IPAC. IPAC contains multiple
        components which consist, in part, of the application that handles
        intra-governmental fund transfers between agencies. Implemented
        in 2001, IPAC replaced the On-line Payment and Collection system
        (OPAC) that had operated since 1985. IPAC was designed to
        transfer funds between Federal agencies.

        In the normal process relative to IPAC charges, GPO first receives
        a request from a customer agency for printing and/or binding on a
        Form SF-1. GPO awards a contract to a vendor/contractor to
        provide the printing. The customer agency approves print orders
        for specific jobs, including a fixed price or a cost estimate plus the
        additional GPO charges (e.g., the 7 percent surcharge). The print
        job is then delivered to the customer agency, and, after paying the
        contractor, GPO prepares the IPAC transaction documents to


05-01                                                                            3
(339)
        charge the agency. At the end of each month, GPO personnel
        access IPAC and retrieve the total costs due from the agency. The
        IPAC transactions immediately affect GPO’s revolving fund and the
        customer agency’s respective accounts in the U.S. Treasury.

        IPAC transactions include two sets of code numbers regarding the
        customer agencies. The first is a Billing Address Code (BAC), a
        GPO-assigned code that provides the customer agency’s mailing
        address. The second is the Agency Location Code (ALC), which is
        an identifying number for customer agency finance centers used by
        IPAC. One ALC can serve many BACs.

        If a customer agency believes GPO has incorrectly taken its funds
        via IPAC, the customer can simply access IPAC and take back the
        funds. Funds that are charged back are removed from GPO’s
        revolving fund. At the end of each month, IPAC provides a
        summary report to GPO detailing all chargeback amounts that have
        been removed from GPO’s accounts.

        The Treasury’s IPAC written procedures provide that there is a time
        limit (90 days) for making chargebacks, and that chargebacks
        cannot exceed the original charges.


        DISCUSSION
        Although this OIG review did not disclose any instances where the
        chargeback exceeded the original charge, the OIG did identify
        several cases where customers did not comply with the time limit.
        The procedures do not provide any other restrictions on
        chargebacks.

        The OIG notes that some IPAC chargebacks are appropriate, such
        as when GPO charged an incorrect amount, or when GPO used
        IPAC but the costs were to be charged to the customer’s credit
        card. The subject of this OIG report is not those instances, but
        instead the cases where customer agencies have taken back funds
        without an appropriate reason or have done so beyond acceptable
        time limits.


        Case Examples




05-01                                                                       4
(339)
                One customer agency having a significant amount of chargebacks
                ($3.5 million in FY 2004) is the Department of Transportation
                (DOT). In January 2004, DOT charged back over $1.2 million, and
                in June 2004, it charged back over $900,000. More recently, in
                July 2004, DOT charged back about $1.4 million. The CFO’s staff
                has re-charged only about $230,000, leaving a net DOT
                chargeback of over $3.3 million, and reducing GPO’s balance at
                Treasury by the same amount. These chargebacks were made by
                different offices or sub-agencies within DOT,1 further exacerbating
                the documentation issue, since each unit has its own budget office.

                July 2004 chargebacks. These most recent of these chargebacks
                involved DOT’s Federal Highway Administration (FHWA) and were
                for work done and originally charged to FHWA in FYs 2003 and
                2004.

                A major part of the chargeback problem is that there is not a clear
                understanding of where, or to whom, GPO is to send the supporting
                documentation for the charges. More importantly, chargebacks
                relating to old transactions seriously affect GPO’s ability to budget
                its expenses each month.

                FHWA’s finance officials, located in Oklahoma City, OK, told OIG
                that they are responsible for reconciling the IPAC charges but that
                they had not received documentation supporting GPO’s original
                charges. The OIG found that GPO was sending the supporting
                documentation for these IPAC charges to an FHWA office in
                Washington, DC. That documentation, however, was never
                forwarded to DOT finance personnel in Oklahoma City.

                To correct this problem, the OIG suggests that GPO’s CFO
                maintain contact with appropriate officials, not only in FHWA and all
                DOT client offices, but also in all affected client agencies, to clearly
                reconcile the two organizations’ respective accounts and enable
                repayment of remaining chargebacks.

                June 2004 chargebacks. These chargebacks involved several
                different sub-agencies within DOT, including a 2-3 year old
                organization, the Federal Motor Carrier Safety Administration.
                GPO personnel explained that some customer agencies have
                changed their ALCs (e.g., via reorganization), but GPO was not so
                informed. The Commercial Billing Section of F&A used to receive a

1
    Total GPO billings to DOT for FY 2003, all done through IPAC, amounted to $22.9 million.


05-01                                                                                          5
(339)
        listing or notice of changes to agencies’ ALCs, but this list is no
        longer provided by Treasury. F&A personnel stated that since no
        formal notice of ALC changes is being provided, they currently
        would not know when an ALC was changed or whether the current
        ALC was accurate. As a result, when GPO charged the former
        ALC in this situation, those transactions were not recognized, and
        the amounts were charged back.

        The OIG is recommending that the Comptroller work with
        Treasury’s comptroller to develop a policy ensuring that all IPAC
        billing code changes (to BACs and ALCs) are updated in the A/R
        Section systems in a timely fashion, such as within 60-90 days.

        January 2004 chargebacks. These involved charges to DOT for
        having its items printed in the Federal Register. GPO charged the
        Office of the Secretary within DOT for these items. The IPAC
        Transaction Description for these chargebacks stated that GPO’s
        original charges were made to an incorrect ALC. The description
        did not provide the correct ALC or any other code number.
        Representatives from DOT said they were not able, even if they
        wanted, to make transfers of funds internally.

        In summary, notwithstanding the customers’ internal accounting
        issues, which are outside GPO’s control, the major issue that is
        within GPO’s control is to contact the customers – in writing or
        personally – to clearly identify:

            •   What documentation is needed to support or justify
                the GPO charges, and

            •   Where and to whom that documentation is to be sent.

        The OIG is recommending that an escalation process for these
        accounts receivable should be developed. Such a process would
        ensure that aged accounts receivable owed to GPO by customer
        agencies require formal notice between different management
        levels as the chargebacks age. First, GPO’s Comptroller would
        contact other Comptrollers to obtain resolution. However, if the
        Comptroller is unsuccessful in persuading Treasury, then this
        matter should be elevated to the agencies’ respective CFOs. If this
        measure does not work, the subject should be dealt with between
        the Inspectors General of the agencies. Failing that effort, the
        matter should elevate to the level of the Deputy Public Printer for
        resolution.


05-01                                                                         6
(339)
        IPAC Lacks Adequate Controls

        This OIG review found that IPAC lacks basic, adequate controls to
        protect against inappropriate chargebacks and possibly other
        transactions. IPAC is an “open” system, meaning that chargebacks
        can be done any time by any agency representative with authorized
        IPAC access. The Department of the Treasury acts only as a
        conduit and does not monitor or control system usage.

        Time limit on chargebacks. The most egregious example of this
        lack of control is regarding when chargebacks, or “adjustments,”
        can be made by customer agencies. The IPAC User Manual,
        Section 2, “Adjustment,” states:

            “IMPORTANT… Adjustments can only be processed
            against payments or collections that are 90 days old
            or less.”

        Moreover, within Section 4025 of the Treasury Financial Manual
        (TFM), Subsection 4025.50, “Transmitting/Receiving the
        Transaction,” it states:

            “Customer agencies [defined as recipients of an IPAC
            transaction] have 90 days after the billing date to
            enter adjustments to payments or collections.”

        In addition, within TFM Section 4035, “Adjustments of Erroneous
        Charges,” it further specifies:

            “If the customer agency subsequently finds that the
            charge is erroneous, it should make the adjustment at
            that time. However, the customer agency is limited to
            90 days, upon receipt of its IPAC transaction, to
            process the adjustment.”

        However, the OIG found that there were no controls to ensure
        compliance with these procedures. The OIG found that DOT’s
        January 2004 chargebacks of $1.2 million were all related to
        charges from the past 3 years, with some dating as far back as
        March 2001. These chargebacks clearly violate the 90-day rule. In
        addition, the July 2004 chargebacks previously cited that date back
        to FY 2003 likewise violate this 90-day limitation.



05-01                                                                      7
(339)
        As mentioned previously, GPO learns about chargebacks the
        month after the customer agencies have taken back the funds,
        when GPO receives an IPAC monthly summary report. Thus GPO
        is unable to budget against these chargebacks, as the dollar
        amounts are not known until after the chargebacks have already
        happened.

        The OIG could not identify any penalty for non-compliance with the
        above stated time limits. This lack of control, as previously stated,
        resulted in an inability to budget for the chargebacks. It also has
        resulted in tremendous inefficiencies as evidenced by the
        resources used by GPO and the customers to correct transactions
        associated with these chargebacks.

        Another potential effect associated with this problem is that
        customer agencies may be benefiting from windfalls of funds
        gained from receiving these chargebacks, which could be used to
        fund their operations in the current fiscal year (and also could be a
        reason or motivation for creating or affecting the chargebacks).

        Notifying GPO. In addition, GPO officials said that IPAC is
        supposed to display an on-screen message that customers are to
        notify GPO before proceeding with a chargeback. CFO officials
        said they have not received any notification from customers prior to
        these inappropriate chargebacks. The OIG was unable to confirm
        the existence of this on-screen message. Customer agencies
        contacted by OIG said they either did not know or could not recall
        whether the message appeared on their screens.

        Identity of source of transactions. Although the OIG made
        repeated attempts, we were unable to identify who in DOT actually
        made the aforementioned FHWA chargebacks. The individual
        listed on the IPAC summary reports (and others in her office)
        denied making the chargebacks. Neither Treasury nor DOT
        personnel could identify the source of the FHWA chargebacks.
        This demonstrates another lack of control issue with IPAC.

        Justifications for chargebacks. A further problem is that IPAC
        does not require customers to provide even basic comments or
        justifications that would explain the reason for chargebacks. The
        IPAC User Manual, Section 2, describes the “Transaction
        Description” as follows:




05-01                                                                           8
(339)
                “…This is not a required field, but it is recommended
                that you provide the reason for the adjustment.”

        IPAC should have a required field which includes a justification of
        why funds are being taken back by a customer agency.

        Concerns about the accessibility and openness of IPAC exist. The
        above FHWA example demonstrates that the system cannot readily
        identify who or even what part of an organization would be making
        chargeback transactions. From this example, access controls over
        this computer system appear to be weak; once in the system, an
        individual could be afforded a wide range of opportunities to divert
        funds for mischievous or fraudulent purposes.

        The OIG is recommending that the CFO contact appropriate
        Treasury officials involved with IPAC to address these related
        control issues within their system. Issues should include the lack of
        compliance by GPO’s customer agencies with current IPAC
        procedures, and insufficient internal controls over IPAC chargeback
        adjustments.


        RESULTS
        The financial impact of GPO’s chargeback problem has grown
        alarmingly worse over the last few years. The total amount of
        chargeback activity and funds being taken from GPO by customers
        via IPAC without good reason has dramatically increased. Not only
        does the dollar-magnitude of chargebacks have a significant
        negative effect on GPO’s available cash for any given month, but
        GPO receives no advance notice of chargebacks to plan against.

        In FY 2002, the gross amount of chargebacks to GPO by client
        agencies was about $11.0 million. In FY 2003, it increased to
        $14.8 million. For just the first 10 months of FY 2004 it exceeded
        $24.0 million. This is a more than 100-percent increase over the
        FY 2002 level.

        Although the CFO’s office has reclaimed most of the gross
        chargebacks for the previous fiscal years, the net amount of
        chargebacks, i.e. the amounts that remain after agreed-on re-
        billings and reversals, has likewise been increasing. At the end of
        FY 2003, net chargebacks were about $4.5 million. However, the



05-01                                                                         9
(339)
        net chargebacks have also more than doubled to over $10.0 million
        as of July 31, 2004.

        IPAC is ostensibly used by GPO and its customer agencies to
        increase the economy and efficiency of all parties’ operations.
        However, IPAC’s lack of control over chargebacks has resulted in
        the exact opposite effect for GPO. The amount of staff time and
        resources expended – by both GPO and the customer agencies –
        in performing duplicative activities, processes, and/or functions by
        having to re-charge agencies for appropriate costs is both
        inefficient and a waste of federal funds.

        Inefficiencies at GPO take the form of personnel having to:

           •   contact customers to determine why amounts were charged
               back;
           •   research GPO documents to support the initial charges;
           •   re-send supporting documents to customers; and
           •   reprocess the customer charges via IPAC.

        The CFO’s A/R section has only four personnel currently involved
        with collections. This is insufficient to perform their normal duties
        and handle the currently increasing volume of chargebacks. The
        OIG recommends that the CFO consider reassigning their staff
        resources, at least in the near-term, to address and correct the
        chargeback problem.


        RECOMMENDATIONS
        In summary, the OIG recommends that the CFO instruct F&A
        personnel as follows:

        1. The A/R Section should continue to work with appropriate
           DOT officials so that the accounts of both organizations are
           reconciled and to reach agreement on the prompt
           repayment of the remaining chargebacks, including the
           $3.3 million noted in FY 2004. (0501-01)

        2. The A/R Section should also continue to work with other
           customer agencies in a similar manner, so that as soon as
           possible after receiving notification of material (i.e. large-
           dollar) chargebacks, they can likewise obtain repayments



05-01                                                                       10
(339)
              for those agencies’ chargebacks. (0501-02)

        3. The Comptroller should consider short-term reassignment
           of additional F&A staff to help assist and resolve the
           chargeback problem. (0501-03)

        4. The Comptroller should develop standard operating
           procedures to ensure that changes to IPAC billing codes
           (ALCs and BACs) are updated in the A/R Section systems
           in a timely manner, such as within 60-90 days. (0501-04)

        In addition, the OIG recommends that the CFO:

        5. Initiate contact with appropriate personnel at Department of
           the Treasury to discuss remedies to IPAC control issue
           concerns. These would include GPO customer agencies’
           lack of compliance with IPAC procedures (e.g. the 90-day
           limit for making chargebacks), and the lack of sufficient
           IPAC controls over adjustments (e.g. notifications or
           required justifications for making chargebacks). (0501-05)

        6. Develop an escalation or resolution procedure to ensure
           that aged A/R balances involving material chargebacks
           owed to GPO by customer agencies are given sufficient
           attention by senior GPO management. The process would
           begin with GPO’s Comptroller contacting other
           Comptrollers. As the receivables age, the process would
           escalate to CFO-to-CFO contact, then IG-to-IG contact. If
           there continues to be insufficient response, the CFO
           should refer this matter to the Office of the Public Printer
           for discussion and resolution. (0501-06)

        GREGORY A. BROWER
        INSPECTOR GENERAL


        By: _________________________________________________
             David B. Schaub, Supervisory Auditor, Office of Audits

        cc:       Deputy Public Printer
                  Comptroller




05-01                                                                     11
(339)
                                                                    EXHIBIT B




               OBJECTIVES, SCOPE, AND METHODOLOGY


This report was developed as a spin-off of the OIG’s audit of GPO’s
Commercial Examination and Billing Process. During the survey phase of that
audit, a major issue was identified that warranted a detailed review and prompt
reporting. The major issue identified was that a significant amount of GPO
funds were electronically being taken back by customer agencies without
GPO’s knowledge or consent.

The resulting objective for this limited-scope review and report was to
determine the conditions, causes, and effects of the problem with chargebacks
and develop recommendations to solve the problem. The OIG conducted this
review during the months of July through September 2004.

We conducted the audit in accordance with generally accepted Government
auditing standards. The OIG review approach included conducting interviews
of appropriate officials, verifying records, and performing a limited sample of
chargebacks in the interest of timely reporting of this matter. The OIG reviewed
applicable GPO instructions, policies and procedures, and the Department of
the Treasury’s IPAC User Manual and relevant portions of the Treasury
Financial Manual to identify established guidelines. There have been no recent
audits or reviews of this issue area.




05-01                                                                        14
(339)
